HHS/OIG-Audit--"Superfund Financial Activities at the National Institute of Environmental Health Sciences for Fiscal Year 1993, (A-04-94-04545)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Superfund Financial Activities at the National Institute of Environmental Health Sciences for Fiscal Year 1993," (A-04-94-04545)
June 8, 1995
Complete
Text of Report is available in PDF format (1.5 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that the National Institute of Environmental Health Sciences (NIEHS) generally administered
the Superfund according to legislation. However, NIEHS did not submit the minority contractors utilization report required
by the interagency agreement with the Environmental Protection Agency in a timely manner. In addition, our review this
year (as well as in the 2 previous years) disclosed that the National Institutes of Health and NIEHS are not ensuring that
grantees comply with the requirement to have an independent audit performed for all Superfund grantees. Recommendations
provide for actions the parent agency, the Public Health Service (PHS), can take to correct these weaknesses. The PHS concurred
with our recommendations and provided a plan of correction action.